TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Improvements in the Distribution and Design
                 of Internal Documents and Tax Publications,
                   Forms, and Notices Could Reduce Costs
                                 Considerably



                                           June 17, 2008

                              Reference Number: 2008-40-125




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 17, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improvements in the Distribution and Design of
                             Internal Documents and Tax Publications, Forms, and Notices Could
                             Reduce Costs Considerably (Audit # 200740024)

 This report presents the results of our review to evaluate the Internal Revenue Service’s (IRS)
 efforts to reduce publishing and mail costs. This audit was conducted as part of our Fiscal
 Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 In Fiscal Year 2007, the IRS spent more than $237 million to print, process, and distribute
 internal documents, tax publications, forms, and written correspondence, including notices, to
 taxpayers and employees. The IRS can strengthen internal controls and increase oversight to
 reduce costs for the publishing and postal budget. Taxpayers indirectly benefit when
 management of tax administration is efficient and cost effective.

 Synopsis
 Controlling and accounting for the IRS’ publishing and postal budget is an enormous task
 considering the volume and variety of publications, forms, instructions, letters, and notices it
 uses and the number of customers it serves–including an organization of more than
 100,000 employees (and about 70,000 volunteers) operating out of more than 8,800 nationwide
 offices that receive shipped internal documents. Additionally, although the IRS’ Media and
 Publications function funds the publishing and distribution of the majority of IRS’ documents,
 the administration of the publishing and postal budget crosses different IRS business units,
                       Improvements in the Distribution and Design of Internal
                     Documents and Tax Publications, Forms, and Notices Could
                                   Reduce Costs Considerably


offices, and functions.1 The Media and Publications function does not currently control or own
many of its products–ownership and control lie with the IRS’ various business units and
functional offices. This has resulted in limited oversight and control over the production and
distribution of documents essential to tax administration.
For Fiscal Years 2006 and 2007, the Media and Publications function realized postal budget
deficits of $7.4 and $23.9 million, respectively. The IRS projects that it will experience a
$29.5 million postage deficit for Fiscal Year 2008. The deficits were attributed to increases in
compliance activities, which resulted in increased enforcement contacts, together with increases
in postal rates. Also, notices to taxpayers are longer and include more pages and stuffers.2
However, the IRS’ emphasis on quality taxpayer customer service requires effective
communication with taxpayers. For the past 2 fiscal years, the IRS has funded a large portion of
its postage costs from other programs.
Tests in three of the following Media and Publications function programs show the IRS could
save substantial publishing and mailing costs by improving oversight and/or internal controls.
•   The Post of Duty Program distributes tax forms, instructions, and publications to the IRS’
    401 Taxpayer Assistance Centers.3 A statistical sample of Taxpayer Assistance Centers
    showed an excess inventory of tax products costing approximately $96,000 in Fiscal
    Year 2006 and approximately $91,000 in Fiscal Year 2007. The 2-year actual lost dollars
    and 3-year future projected cost savings from the elimination of printing and distribution of
    excess tax products totaled $3.2 million.
•   The Internal Management Document Distribution System (IMDDS) operated by the Media
    and Publications function is used to distribute internal documents to IRS functional offices
    and employees. A statistical sample of functional offices listed on the IMDDS in Fiscal
    Year 2007 showed that 11,627 internal documents were unnecessarily delivered to functional
    offices at a cost of approximately $13,371. The 1-year actual lost dollars and 4-year future
    projected cost savings from the elimination of printing and distribution of unnecessary
    documents totaled $4.6 million.


1
  The IRS is divided into three Commissioner-level organizations with four primary business units/divisions: Large
and Mid-Size Business, Small Business/Self-Employed, Tax Exempt and Government Entities, and Wage and
Investment Divisions. Other principal offices include Appeals, Communications and Liaison, Criminal
Investigation Division, Office of Chief Counsel, Office of Professional Responsibility, and Taxpayer Advocate
Service. Each division or office has multiple functions.
2
  Stuffers are individual inserts included in the envelope with the notices and letters. They generally provide
taxpayers with additional information related to the notice or promote IRS programs and services.
3
  Taxpayer Assistance Centers provide taxpayers with face-to-face assistance in interpreting tax laws and
regulations, preparing certain tax returns, resolving inquiries on taxpayer accounts, and providing various other
services designed to minimize the burden on taxpayers in satisfying their tax obligations. The Field Assistance
Office has responsibility for the Taxpayer Assistance Center Program.
                                                                                                                 2
                    Improvements in the Distribution and Design of Internal
                  Documents and Tax Publications, Forms, and Notices Could
                                Reduce Costs Considerably



•   The Notice/Letter Program generates and mails notices and letters to taxpayers pertaining to
    their tax accounts. A judgmental sample of 40 notices and letters most frequently issued to
    taxpayers in Fiscal Years 2005 through 2007 showed that the IRS could have saved
    approximately 408 million pages of paper at a cost of approximately $7.3 million by
    improving oversight and centralizing authority over the Program. The 2-year future
    projected cost savings from the elimination of unnecessary pages and stuffers in notices and
    letters issued to taxpayers totaled $4.9 million.
The IRS is already taking corrective actions. For example, the Field Assistance Office issued
guidance to its Taxpayer Assistance Center managers that stressed the importance of balancing
the availability of the proper amount of tax products for distribution to taxpayers and the
effective management of tax products to reduce waste. The Media and Publications function is
planning to implement a new system to allow employees to use the IRS’ Intranet to order
products and update the IMDDS. Future system enhancements will include adding a process to
validate order points and distribution quantities, conduct annual validation surveys, and remove
offices that are no longer responding.

Recommendations
The Commissioner, Wage and Investment Division, should 1) establish a control system to
ensure that the level of inventory of tax products at Taxpayer Assistance Centers is cost
effective, 2) ensure that IRS functional offices are aware of the significance of the IMDDS,
3) establish and implement a system of internal controls to ensure that IMDDS data are current
and reliable, and 4) enhance the notice improvement process to include reviews of all notices and
letters to ensure that they use the least possible resources.

Response
IRS management agreed with all of our recommendations but did not agree with the outcome
measures. In response to our four recommendations, IRS management stated that:
1) The Media and Publications function partnered with the Field Assistance Office to improve
communications and strengthen internal controls on forms and publication inventory
management. To enhance efficiency and reduce waste, they modified the ordering process by
creating a Revision Date list allowing Taxpayer Assistance Centers to order revised forms when
they are revised rather than annually, implementing the capability to order tax products in less
than full carton increments, and developing training which increases emphasis on inventory
management.
2) The initial phase of the new Order and Subscription Management System was launched in
February 2008. In addition to using the system to place orders, offices are now able to change

                                                                                                   3
                    Improvements in the Distribution and Design of Internal
                  Documents and Tax Publications, Forms, and Notices Could
                                Reduce Costs Considerably


Order Point Number Information including contact information, number of employees, and the
addition/deletion of items from their IMDDS. Management will develop an IRS-wide training
module on the Enterprise Learning Management System which, along with a certification
process, will help to ensure that offices are aware of the significance of the IMDDS and the need
to keep it current.
(3) To ensure that the IMDDS data are current and reliable, the Order and Subscription
Management System will improve the ability to communicate with the Order Point Number via
email when there are changes impacting the number of internal documents in an office.
(4) They will enhance the Order and Subscription Management System to include a process for
validating Order Point Numbers and distribution quantities. They have developed a Notice
Governance Review Process for new and revised notices. This process includes issuance of a
checklist to ensure that proper coordination across business units has taken place, that
effectiveness measures have been developed, and that the most efficient delivery and publishing
options (including postage impact) have been considered. This process will also include a
review of all notices and letters to ensure they use the least possible resources.
Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
The IRS agreed with all of our recommendations and has taken actions to improve oversight and
reduce costs. It also agreed that planned corrective actions would generate cost savings but did
not agree with all the measurable benefits of $20 million. However, our tests allowed for
variables and were based on the best data available. The reported actual and projected
measurable benefits are a conservative estimate of cost savings the IRS could realize from its
corrective actions.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                  4
                           Improvements in the Distribution and Design of Internal
                         Documents and Tax Publications, Forms, and Notices Could
                                       Reduce Costs Considerably




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Better Inventory Controls Over the Post of Duty Program
          Would Reduce Costs.....................................................................................Page 3
                    Recommendation 1:........................................................Page 6

          Better Controls and More Oversight Over the Distribution of Internal
          Documents to Employees Would Reduce Costs...........................................Page 7
                    Recommendation 2:........................................................Page 9

                    Recommendation 3:……………………………………Page 10

          Improved Oversight and More Centralization Would Reduce the
          Costs of Issuing Notices and Letters.............................................................Page 10
                    Recommendation 4:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 17
          Appendix II – Major Contributors to This Report ........................................Page 19
          Appendix III – Report Distribution List .......................................................Page 20
          Appendix IV – Outcome Measures...............................................................Page 21
          Appendix V – Notices and Letters Included in Cost Savings.......................Page 26
          Appendix VI – Management’s Response to the Draft Report ......................Page 30
          Improvements in the Distribution and Design of Internal
        Documents and Tax Publications, Forms, and Notices Could
                      Reduce Costs Considerably




                      Abbreviations

IMDDS           Internal Management Document Distribution System
IRS             Internal Revenue Service
                       Improvements in the Distribution and Design of Internal
                     Documents and Tax Publications, Forms, and Notices Could
                                   Reduce Costs Considerably




                                            Background

The Internal Revenue Service (IRS) collects approximately $2.3 trillion annually and it begins
with the forms, instructions, and publications that the IRS’ Media and Publications function
                               creates, publishes, and delivers. The IRS annually publishes and
                               mails tax forms, instructions, and publications that taxpayers need
                               to file tax returns and comply with the Federal tax laws. It also
                               mails millions of letters and notices to individual and business
                               taxpayers and their representatives each year. In addition, it
                               publishes and distributes internal documents that IRS employees
                               need to do their jobs.
                                   In Fiscal Year 2007, the Media and Publications function spent
                                   more than $237 million to print, process, and distribute tax forms,
                                   instructions, publications, and written correspondence, including
                                   notices. For Fiscal Year 2008, the postal budget is $187 million
                                   and the printing budget is $63 million.
Controlling and accounting for the publishing and postal budget is an enormous task considering
the volume and variety of publications, forms, instructions, letters, and notices the IRS uses and
the number of customers it serves–including an organization of more than 100,000 employees
(and about 70,000 volunteers) operating out of more than 8,800 nationwide offices that receive
shipped internal documents. Additionally, although the Media and Publications function funds
the publishing and distribution of the majority of the IRS’ documents, the administration of the
publishing and postal budget crosses different IRS business units, offices, and functions.1
The Media and Publications function’s mission is to meet customer needs through developing
understandable notices to produce external and internal forms and publications that facilitate tax
administration and ease of compliance by taxpayers, and to supply media and publishing services
to customers. To help meet its mission, the Media and Publications function has Publishing and
Distribution Branches.
•   The Publishing Branch plans, produces, or procures IRS printed products used by the public
    to comply with tax filing requirements and obligations and used internally within the IRS for


1
 The IRS is divided into three Commissioner-level organizations with four primary business units/divisions: Large
and Mid-Size Business, Small Business/Self-Employed, Tax Exempt and Government Entities, and Wage and
Investment Divisions. Other principal offices include Appeals, Communications and Liaison, Criminal
Investigation Division, Office of Chief Counsel, Office of Professional Responsibility, and Taxpayer Advocate
Service. Each division or office has multiple functions.
                                                                                                          Page 1
                    Improvements in the Distribution and Design of Internal
                  Documents and Tax Publications, Forms, and Notices Could
                                Reduce Costs Considerably



    tax administration. This encompasses document design, specifications writing, production
    planning, acquisition, and delivery/distribution coordination.
•   The Distribution Branch provides planning and distribution services for IRS print and
    electronic communication products used by the public to comply with tax filing requirements
    and obligations and used internally within the IRS for tax administration.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia, and the Media and Publications function in Washington, D.C., during the
period June 2007 through January 2008. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                        Improvements in the Distribution and Design of Internal
                      Documents and Tax Publications, Forms, and Notices Could
                                    Reduce Costs Considerably




                                       Results of Review

For Fiscal Years 2006 and 2007, the Media and Publications function realized postal budget
deficits of $7.4 and $23.9 million, respectively. The IRS projects that it will experience a
$29.5 million postage deficit for Fiscal Year 2008. The deficits were attributed to increases in
compliance activities, which resulted in increased enforcement contacts, together with increases
in postal rates. Also, notices to taxpayers are longer and include more pages and stuffers.2
However, the IRS’ emphasis on quality taxpayer customer service requires effective
communication with taxpayers. For the past 2 fiscal years, the IRS has funded a large portion of
its postage costs from other programs.

Better Inventory Controls Over the Post of Duty Program Would
Reduce Costs
The Media and Publications function’s Post of Duty Program distributes tax forms, instructions,
and publications to the IRS’ 401 Taxpayer Assistance Centers. Taxpayer Assistance Centers
provide taxpayers with face-to-face assistance in interpreting tax laws and regulations, preparing
certain tax returns, resolving inquiries on taxpayer accounts, and providing various other services
designed to minimize the burden on taxpayers in satisfying their tax obligations. As part of these
services, the Taxpayer Assistance Centers maintain an inventory of many of the IRS’ tax
products, which includes forms, instructions, and publications to allow taxpayers the option of
picking up the forms and publications at a local office.
Our test results showed that the IRS does not have an effective process to determine the volume
of tax products needed at the Taxpayer Assistance Centers. A statistical sample of tax product
inventories and orders from 58 of the 401 Taxpayer Assistance Centers showed the following
approximate excess tax products:3
•   1.3 million tax products costing approximately $96,000 in Fiscal Year 2006.
•   1.2 million tax products costing approximately $91,000 in Fiscal Year 2007.
Taxpayer Assistance Centers using 90 percent of their inventories of tax products were
considered to have efficient inventory controls. An inventory of remaining tax products of more
than 10 percent of annual orders was considered waste. Figure 1 shows the results of the
analyses of the inventories for the 58 Taxpayer Assistance Centers sampled.


2
  Stuffers are individual inserts included in the envelope with the notices and letters. They generally provide
taxpayers with additional information related to the notice or promote IRS programs and services.
3
  Excess tax products for the months of October through September for Fiscal Years 2006 and 2007.
                                                                                                                  Page 3
                        Improvements in the Distribution and Design of Internal
                      Documents and Tax Publications, Forms, and Notices Could
                                    Reduce Costs Considerably



                    Figure 1: Taxpayer Assistance Center Sample Results

                                        Fiscal Year 2006                         Fiscal Year 2007
                                               Projected to All                          Projected to All
                             Sampled         Taxpayer Assistance        Sampled        Taxpayer Assistance
                                                  Centers                                   Centers

     Taxpayer
     Assistance              27 of 58            188 of 401               25 of 58             172 of 401
     Centers With             (47%)                (47%)                   (43%)                 (43%)
     Excess Tax
     Products
     Number of Excess          1.3                  9.2                     1.2                    8.7
     Tax Products             million              million                 million                million

     Cost of Excess
                             $96,000              $674,000                $91,000               $638,000
     Tax Products4
    Source: Our analysis of Media and Publications function Due-In and Balance on Hand Survey
    Reports for Fiscal Years 2005 through 2007.

From the results of our statistical sample of Taxpayer Assistance Centers, the projected cost of
excess tax products for 188 Taxpayer Assistance Centers is $674,000 for Fiscal Year 2006. For
Fiscal Year 2007, the projected cost for 172 Taxpayer Assistance Centers is $638,000.5
The Media and Publications function requires that all Taxpayer Assistance Centers be surveyed
each year for initial tax product quantity requirements (Due-In Survey) and to determine the
balance on hand remaining in May (Balance On Hand Survey). The Due-In Survey completed in
June is to reflect the initial order adjusted by reorders and the May 1 Balance On Hand Survey
data.
To mitigate costs, the Media and Publications function ensures that mail costs are kept to a
minimum by shipping full cartons and combining orders. However, neither it nor the Field
Assistance Office responsible for the Taxpayer Assistance Center Program has trended the data
over multiple years to ensure that inventories are in line with expected taxpayer demand.
Internal controls should generally be designed to assure that ongoing monitoring occurs in the
course of normal operations. In December 2007, the Field Assistance Office issued guidance to


4
  We used the average publishing ($.0545) and shipping ($.0191) expense provided by the Media and Publications
function to compute the actual and projected costs ($.0545 + $.0191 = $.0736). The calculated cost of excess tax
products will not equal due to rounding.
5
  The sampling error is ± 5 percent with a 90 percent confidence level that the cost of excess tax products ranges
from $362,375 to $968,572 for Fiscal Year 2006 and from $331,071 to $929,258 for Fiscal Year 2007 for the
population of 401 Taxpayer Assistance Centers. The 2-year actual lost dollars and 3-year future projected cost
savings from the elimination of printing and distribution of excess tax products totaled approximately $3.2 million.
See Appendix IV for details.
                                                                                                             Page 4
                       Improvements in the Distribution and Design of Internal
                     Documents and Tax Publications, Forms, and Notices Could
                                   Reduce Costs Considerably



Taxpayer Assistance Center managers that stressed the importance of balancing the availability
of the proper amount of tax products for distribution to taxpayers and the effective management
of tax products to reduce waste.

Insufficient cost data and fragmented administration diffuses the accountability
for the Post of Duty Program results
Although a discussion with Field Assistance Office managers showed that costs are a
consideration when doing business, their focus is on their programs’ objectives and goals. The
funding for the Taxpayer Assistance Centers’ inventory of forms, instructions, and publications
lies with the Media and Publications function.
Since August 2007, the Field Assistance Office has dedicated an employee to partner with the
Media and Publications function to improve communication and help ensure efficient inventory
controls. The Media and Publications function has also made the commitment to the Field
Assistance Office to provide assistance and foster relationships with it. This is the initial step to
improve the availability and distribution of tax products while also focusing on reducing costs.
Federal Government management control standards require that agencies ensure that appropriate
authority, responsibility, and accountability are defined and delegated to accomplish the mission
of the organization.6 The Media and Publications function must communicate its goals and have
sufficient oversight and controls to ensure accountability and recognition of the value and
importance of the Media and Publications function programs to both its internal and external
stakeholders. However, the Media and Publications function has limited systems to track the
use, costs, and effectiveness of its products. Therefore, it cannot provide sufficient oversight or
provide the users and owners of its various products
with sufficient cost data so they can make sound                 The Media and Publications
business decisions.                                             function deals simultaneously
                                                                    with more than 25 vendors under
For example, the Media and Publications function was       dozens of contracts to produce
not able to readily provide the cost of publishing and       and distribute tax products
shipping tax products to the Taxpayer Assistance               directly to the Taxpayer
Centers. It deals simultaneously with more than                  Assistance Centers.
25 vendors under dozens of contracts to produce and
distribute tax products directly to the Taxpayer
Assistance Centers. To determine the cost of providing tax products to the Taxpayer Assistance
Centers, the Media and Publications function would have to review invoices for all of the
vendors that publish each form and publication. This process would have to be repeated for each
document provided to the Taxpayer Assistance Centers.


6
  Office of Management and Budget’s Management’s Responsibility for Internal Control (Circular A-123), as
revised December 21, 2004.
                                                                                                        Page 5
                    Improvements in the Distribution and Design of Internal
                  Documents and Tax Publications, Forms, and Notices Could
                                Reduce Costs Considerably



Instead, the Media and Publications function provided auditors with the average cost for
approximately 200 products that were shipped to the Taxpayer Assistance Centers during Fiscal
Year 2006. To compute the cost of excess tax products, we took the average of the average costs
provided by the Media and Publications function. To compute the associated shipping costs, we
used the Media and Publications function methodology that uses a percentage of the publishing
costs. The Media and Publications function is planning to review the Taxpayer Assistance
Centers’ mandatory tax products stocking lists to determine tax products volumes. This will
improve the product ordering process and allow for adjustments to the distribution plan. These
types of adjustments have not been done in the past.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should establish a
control system to ensure that the level of inventory of forms and publications maintained by the
Taxpayer Assistance Centers is cost effective.
       Management’s Response: IRS management agreed with this recommendation but
       did not agree with the reported outcome measure. The Media and Publications function
       partnered with the Field Assistance Office to improve communications and strengthen
       internal controls on forms and publication inventory management. To enhance efficiency
       and reduce waste, they modified the ordering process by 1) creating a Revision Date list
       allowing Taxpayer Assistance Centers to order revised forms when they are revised
       rather than annually, 2) implementing the capability to order tax products in less than full
       carton increments, and 3) developing training which increases emphasis on inventory
       management.
       Office of Audit Comment: The IRS believed the cost of excess products did not take
       into consideration Taxpayer Assistance Center estimated usage (23 percent) for the
       remainder of the calendar year after the completion of the Balance on Hand survey in
       May and legislation passed late in the calendar year. Our tests allowed for 10 percent
       usage during this time period. The IRS’ 23 percent estimate is based on taxpayer
       contacts and not a count of specific tax products distributed, because the current process
       does not require Taxpayer Assistance Center managers to count inventory used from June
       through December. During the fall, taxpayers generally begin to obtain tax documents
       for the upcoming filing season. Our outcomes were based on the best data available
       because, without a subsequent count, we cannot rely upon the IRS’ estimated usage
       during this time period.
       Furthermore, the Media and Publications function requires that all Taxpayer Assistance
       Centers take into consideration all variables when determining the appropriate volume of
       tax products to order. Neither the Media and Publications function nor the Field
       Assistance Office trended data over multiple years to ensure inventories were in line with

                                                                                            Page 6
                        Improvements in the Distribution and Design of Internal
                      Documents and Tax Publications, Forms, and Notices Could
                                    Reduce Costs Considerably



        expected taxpayer demand. Our analyses identified waste in each of the 2 years of the
        IRS’ Post of Duty program data tested, and we believe the cost of excess tax products is
        accurately reflected.

Better Controls and More Oversight Over the Distribution of Internal
Documents to Employees Would Reduce Costs

The IMDDS automatically distributes                 Although the IRS communicates with its employees
published products to IRS employees.                extensively through its Intranet, it maintains an
The IMDDS is designed to reduce                     inventory of more than 2,000 published internal
employee burden by automatically                    documents, including the IRS internal manual
distributing internal documents as they are         containing operational guidelines. More than
revised and printed based on the quantity           100,000 employees operating in 8,841 nationwide
established by each office. This is
supposed to ensure that IRS offices never           offices use these internal documents to do their jobs,
have to order additional copies of products         requiring the IRS to maintain an extensive
or throw away excess products if their              distribution system called the Internal Management
IMDDS distribution is accurate.                     Document Distribution System (IMDDS). The
All IRS functional offices receive a                IMDDS is operated by the Media and Publications
quarterly (March, June, September and               function and is used to distribute internal documents
December) IMDDS Order Point Summary
Report that lists every item (and the
                                                    to IRS functional offices and employees.
associated quantities) that is automatically   We sent questionnaires to a statistical sample of
sent to the functional office each time the
products are revised. The functional
                                               133 of the 8,841 functional offices (order points)
offices should review the report and revise    listed on the IMDDS for Fiscal Year 2007.7 Office
it with any necessary changes.                 managers were asked if the current documents
                                               distributed to their offices were needed and, if so,
would the offices prefer to receive them in electronic format. Based on the answers to the
questionnaires, 11,627 (37 percent) of 31,208 unique internal documents were unnecessarily
delivered to functional offices at a cost of approximately $13,371. Of the 133 functional offices
tested:
•   7 offices (5 percent) had disbanded and no longer existed.
•   4 managers (3 percent) responded that they did not need any of the internal documents that
    were scheduled to be delivered and/or that they had been receiving.
•   60 managers (45 percent) responded that they did not need all of the documents that were
    scheduled to be delivered and/or that they had been receiving--or that they preferred to
    receive them electronically.


7
  Our original sample was 136 offices. We were unable to capture the results for three offices because the
respondents did not answer all of the questions on the questionnaires.
                                                                                                             Page 7
                        Improvements in the Distribution and Design of Internal
                      Documents and Tax Publications, Forms, and Notices Could
                                    Reduce Costs Considerably



•     62 managers (47 percent) responded that they needed all of the documents--but not
      necessarily the quantity they were current receiving--or preferred to receive some of them
      electronically.
Our results show that office managers do not understand the IMDDS and do not update their list
of documents scheduled to be distributed. Additionally, there are insufficient internal controls to
ensure the IMDDS is operating as intended. The IMDDS is not kept current, as evidenced by
functional offices listed that no longer existed. Documents were also being automatically
delivered to functional offices that no longer needed or wanted them or could be provided more
economically in electronic formats.
Figure 2 shows the volume of documents being shipped to IRS functional offices that are no
longer needed or, if needed, could be delivered in an electronic format.
           Figure 2: IRS Functional Office Internal Documents Sample Results

                                         Documents No              Documents
     Responses                                                     Preferred in           Total Documents
                                         Longer Needed
                                                                Electronic Format

     Did not need any documents.               2,073                      –                      2,073
     Did not need all of the
     documents and/or did not need             4,808                   1,259                     6,067
     the quantity delivered.
     Needed all of the documents                 548                   2,939                     3,487
     but in lesser quantities.

     Totals                                    7,429                   4,198                    11,627
    Source: Our analysis of responses to questionnaires and the August 2007 IMDDS report.

From the results of our statistical sample of office managers’ responses, the projected cost
savings the IRS could realize from improved internal controls and oversight of IMDDS is
$925,048 for Fiscal Year 2007.8

Internal controls were not effective to ensure the accuracy and reliability of
IMDDS data9
•     Periodic reviews and reconciliations of order points were not completed to ensure that offices
      were still functional. Seven (5 percent) of the 133 offices in our sample that are currently

8
  The sampling error is ±5 percent with a 90 percent confidence level that the cost of unneeded documents ranges
from $602,025 to $1,166,175. The 1-year of actual lost dollars and 4-year future projected cost savings from the
elimination of printing and distribution of unnecessary documents to the 8,841 IRS functional offices totaled
$4.6 million. See Appendix IV for details.
9
  The calculated number of offices will not equal due to rounding.
                                                                                                           Page 8
                     Improvements in the Distribution and Design of Internal
                   Documents and Tax Publications, Forms, and Notices Could
                                 Reduce Costs Considerably



    receiving internal documents no longer exist or have changed locations. Projecting this to
    the total population, the number of offices that might no longer exist but are still receiving
    documents is 465 (5 percent x 8,841). An integral component of any management
    information system is application controls. The Media and Publications function should
    ensure that application controls are incorporated directly into the IMDDS to help ensure the
    validity, completeness, and accuracy of data.
•   Effective guidance and education were not provided to ensure that office managers
    understood the significance and purpose of the IMDDS order forms and reports. For
    example, when asked if they understood the significance and purpose of the IMDDS order
    forms and reports, 29 (23 percent) of 128 managers indicated they did not. Projecting this to
    the total population, the number of office managers that might not understand the IMDDS is
    2,003 (23 percent x 8,841). Understanding information system controls is important when
    information systems are used as an extensive part of the program. The Media and
    Publications function should ensure that all office managers understand the importance of the
    IMDDS and the costs associated with it.
Additionally, the Media and Publications function did not have cost data specific to each internal
document. For example, the Media and Publications function did not have the data on the cost of
publishing and shipping internal documents to IRS functional offices. Instead, it advised us to
use the average cost of the most and least frequently published document. To compute the cost
of excess internal documents, we took the average costs provided by the Media and Publications
function.
IRS officials acknowledge the problems with the IMDDS and are already taking corrective
actions. For example, the Media and Publications function is planning to implement a new
system to allow employees to use the IRS’ Intranet to order products and update the IMDDS.
Future system enhancements will include adding a process to validate order points and
distribution quantities, conduct annual validation surveys, and remove offices that are no longer
responding. Additionally, it plans to start transitioning appropriate IMDDS products to
electronic format. This is a challenge because the current system is based on office delivery and
not individual delivery.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 2: Ensure that functional offices are made aware of the significance of the
IMDDS and the need to keep it current to prevent the shipment of unnecessary internal
documents.
       Management’s Response: IRS management agreed with this recommendation but
       did not agree with the reported outcome measure. The initial phase of the new Order and

                                                                                             Page 9
                          Improvements in the Distribution and Design of Internal
                        Documents and Tax Publications, Forms, and Notices Could
                                      Reduce Costs Considerably



           Subscription Management System was launched in February 2008. In addition to using
           the system to place orders, offices are now able to change Order Point Number
           Information including contact information, number of employees, and the
           addition/deletion of items from their IMDDS. Management will develop an IRS-wide
           training module on the Enterprise Learning Management System which, along with a
           certification process, will help to ensure that offices are aware of the significance of the
           IMDDS and the need to keep it current.
Recommendation 3: Establish and implement a system of internal controls to ensure that
IMDDS data are current and reliable. This includes conducting a complete reconciliation of
offices/order points to ensure that functional offices scheduled to receive internal documents
have not relocated or disbanded.
           Management’s Response: IRS management agreed with this recommendation but
           did not agree with the reported outcome measure. To ensure that IMDDS data are current
           and reliable, the Order and Subscription Management System will improve the ability to
           communicate with the Order Point Number via email when there are changes impacting
           the number of internal documents in an office. Management will enhance the Order and
           Subscription Management System to include a process for validating Order Point
           Numbers and distribution quantities.
           Office of Audit Comment: The IRS believes its planned training and modified
           ordering process will reduce our projected savings. However, we believe our reported
           outcomes are accurate because they are based on a statistical sample that reflects cost
           savings the IRS could realize as a result of audit tests and the IRS’ corrective actions.
           Our process is designed to allow the IRS an opportunity to reflect realized savings once
           they have occurred.

Improved Oversight and More Centralization Would Reduce the Costs
of Issuing Notices and Letters
The Notice/Letter Program generates and mails notices
                                                                             One tree is needed to make
and letters to taxpayers pertaining to their tax accounts.                  approximately 8,300 sheets of
The IRS has more than 44 different systems that                           copy paper. At least 43,000 trees
generate more than 1,000 different types of notices and                      are needed to create just the
letters. The volume of notices and letters issued has                      paper for the notices and letters
increased approximately 518 percent, from                                       the IRS mails in 1 year,
                                                                            considering a notice is no less
approximately 30 million in Fiscal Year 2001 to                                      than 2 pages.
approximately 183 million in 2007.10 Additionally, the
increased weight of the correspondence (i.e., increase in

10
     The calculated percentage increase will not equal due to rounding.
                                                                                                       Page 10
                    Improvements in the Distribution and Design of Internal
                  Documents and Tax Publications, Forms, and Notices Could
                                Reduce Costs Considerably



the number of pages and the number of stuffers) is contributing to the increased costs.
A judgmental sample of 40 notices and letters most frequently issued to taxpayers over 3 years
(Fiscal Years 2005 through 2007) showed that the IRS could have saved approximately
408 million pages of paper at a cost of approximately $7.3 million by 1) eliminating duplicate
copies of notices and letters provided to taxpayers, 2) eliminating unnecessary cover sheets,
3) redesigning notices and letters, and 4) reducing the number of stuffers included with a
notice/letter. See Figure 3 for a breakdown of the cost savings.




                                                                                          Page 11
                          Improvements in the Distribution and Design of Internal
                        Documents and Tax Publications, Forms, and Notices Could
                                      Reduce Costs Considerably



                 Figure 3: Cost Savings Associated With Notices and Letters11
                                Number           Costs for the         Projected Cost
                               of Notices        Prior 3 Fiscal       Savings Over the                 Totals
Type of Change                 and Letters           Years           Next 2 Fiscal Years

Eliminating                          5             $1,376,991                $917,994               $2,294,985
Duplicate Copies of
Notices and Letters
Eliminating                          4             $1,397,403                $931,602               $2,329,005
Unnecessary Cover
Sheets
Redesigning                         12             $3,953,655             $2,635,770                $6,589,425
Notices and Letters
Reducing Stuffers                   16               $620,133                $413,422               $1,033,555
Included With
Notices and Letters

Total                                              $7,348,182             $4,898,788               $12,246,97012

Eliminating Duplicate          For 5 (13 percent) of the 40 notices reviewed, the IRS could eliminate the
Copies of Notices and          duplicate copy. As a courtesy, when the IRS sends notices or letters to
Letters                        taxpayers, it includes two copies – one intended to be returned to the IRS with
                               either a payment or explanation and one for taxpayers to keep for their
                               records.

Eliminating                    For 4 (10 percent) of the 40 notices reviewed, the IRS could eliminate the
Unnecessary Cover              cover sheets. To protect taxpayer privacy, the IRS includes cover sheets to
Sheets                         prevent taxpayer Social Security Numbers from being seen through the
                               window on the envelopes. However, the IRS no longer prints taxpayers’ Social
                               Security Numbers on notices that can be seen through the window on
                               envelopes.

Redesigning Notices            For 12 (30 percent) of the 40 notices reviewed, the IRS could eliminate 1 page
and Letters                    of each notice by rearranging the content of the notices to better utilize blank
                               space.

Reducing the Number
                               For 16 (40 percent) of the 40 notices reviewed, the IRS could eliminate
of Stuffers Included
                               18 stuffers included with the notices and letters. The IRS mails out more than
With Notices and
                               70 types of stuffers with correspondence it sends to taxpayers.
Letters

Source: Our analysis of IRS notices and letters.




11
     Specifics on each of the notices, letters, and stuffers can be found in Appendix V.
12
     See Appendix IV for details. The cost savings will not equal totals in Appendix IV due to rounding.
                                                                                                           Page 12
                       Improvements in the Distribution and Design of Internal
                     Documents and Tax Publications, Forms, and Notices Could
                                   Reduce Costs Considerably



The 2-year future projected cost savings from the elimination of unnecessary pages and stuffers
in notices and letters issued to taxpayers totals $4.9 million.13 The cost savings include the paper
and ink used to produce the notices and letters, but does not include postage. We also attempted
to determine the cost savings for the machines used to produce notices and letters; however, the
IRS did not track the information and was unable to provide it to us. Without these data, neither
we nor the IRS were able to calculate productivity gains from reducing the number of stuffers,
pages printed, and envelopes stuffed. In addition, we could not determine the savings in postage,
if any, because the elimination of a page or stuffer might not sufficiently decrease the total
weight of the envelope.
The IRS has ongoing efforts to improve the content/effectiveness of the notices and letters. It
also contacts its partners, such as the Internal Revenue Service Advisory Council,14 with
suggestions for notice improvements. The IRS recently asked the Council to assist in analyzing
and reducing the volume of stuffers. In its report dated November 15, 2007, the Council
reported it saw many opportunities to reduce the substantial volume of paper generated each
year.

Fragmented administration of the Notice/Letter Program affects the IRS’ efforts to
identify and implement changes to reduce costs
While the Media and Publications function’s budget funds the publishing and distribution of the
notices and letters, multiple offices and functions own them and two offices are dedicated to
them:
•    The Office of the Notice Gatekeeper in the Accounts Management function has responsibility
     for taxpayer communications, both electronic and paper. Its staff works closely with other
     IRS offices to collaborate and provide guidance for initiatives involving notices and letters.
     It also maintains the Servicewide Notice Information Program, an internal electronic tool that
     provides notice and letter information, such as purpose, stuffers, and telephone response
     rates. The Servicewide Notice Information Program also provides the notice volume from
     the most recent cycle, a sample image when available, and the purpose of the notice.
•    The Notice Improvement Office in the Media and Publications function oversees and guides
     the taxpayer notice process and manages the notice improvement process by identifying,
     creating, and refining tools, processes, and the systems that enhance it.
In Fiscal Year 2007, the IRS hosted a Notice Summit to assess the current state of the notice
process, update the notice vision and strategy, and develop a plan of action for improvements.
One of the Summit’s conclusions was that the IRS needs a single centralized business authority


13
  See Appendix IV for details.
14
  The primary purpose of the Internal Revenue Service Advisory Council is to provide an organized public forum
for discussion of relevant tax administration issues between the IRS officials and representatives of the public.
                                                                                                          Page 13
                     Improvements in the Distribution and Design of Internal
                   Documents and Tax Publications, Forms, and Notices Could
                                 Reduce Costs Considerably



to oversee and guide all IRS outbound correspondence. For example, discussions with
Correspondence Production Services in the Media and Publications function, which is
responsible for printing, inserting, sorting, and mailing IRS notices, revealed that the amount of
ink used for reverse text could print an entire notice page.
                      Reverse text is used for emphasis and is white text on
                  black background rather than black text on white background.

Although responsible for printing notices, the Correspondence Production Services does not have
the authority to make layout changes. Furthermore, identifying the notice owner or responsible
office to discuss less costly alternatives can be difficult.
Figure 4 shows how administering the Notice/Letter Program is spread among multiple offices,
owners, and stakeholders.
                      Figure 4: Current Notice Development Process


                    Divisions
                                        Stakeholders           Reviews
                   and Offices


                     Wage and
                    Investment
                      Division
                                           Counsel
                  Small Business/                           Postage Impact
                  Self-Employed
                     Division
                                         Consolidated
                 Tax Exempt and                                                 Modernization and
                                          Print Sites         Production
                Government Entities                                             Information
                                                                Impact
                     Division                                                   Technology Services
                                                                                 – Programs
                                                                                and Implements
                    Large and                                                   Work Requests
                                         Gatekeeper          Downstream
                 Mid-Size Business
                      Division                                 Impact


                     Criminal
                                          Postage
                   Investigation                              Clarity and
                                         Management
                                                             Effectiveness
                    Taxpayer                                   Measures
                 Advocate Service
                                            Notice
                                         Improvement
                   Other (e.g.,
                 Human Resources)



        Source: IRS January 2008 PowerPoint, “Notice Governance … a blueprint … a process ... a state.”

What offices are responsible is unclear and communications between notice owners,
stakeholders, and reviewers is convoluted. Without an understandable structure and a clear path
of communication, there is little or no accountability for the program.



                                                                                                      Page 14
                    Improvements in the Distribution and Design of Internal
                  Documents and Tax Publications, Forms, and Notices Could
                                Reduce Costs Considerably



The steps we had to take to complete our analysis of the notices and letters mirrored those in
Figure 4. Additionally, there was little or no cost information available, and we used estimates
and outdated costs to quantify the cost savings. For example, the cost per page for the notices
was obtained from a document prepared by an outside contractor that supplied the cost per page
for each notice for Fiscal Year 2005.
Federal Government management control standards require that agencies ensure that appropriate
authority, responsibility, and accountability are defined and delegated to accomplish the mission
of the organization. The standards also require that an appropriate organizational structure be
established to effectively carry out program responsibilities.
In Fiscal Year 2008, the Media and Publications function plans to establish a Notice Governance
structure to provide oversight for notice delivery services. Management states that Notice
Governance will provide the building blocks to create an IRS-wide review function, ensuring
that notices are developed and issued in the most cost-efficient manner and adhere to IRS
standards. Most importantly, a new system, the Notice Management Information System, will
capture issuance costs and taxpayer behavior.

Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, should enhance the
notice improvement process to include reviews of all notices and letters to ensure that they use
the fewest possible resources. This includes arranging text to minimize pages, evaluating the
cost/benefit of issuing taxpayers duplicate copies of notices, eliminating stuffers when the
information can be included more economically in the notices, and identifying opportunities to
reduce costs by changing the design and presentation of information in notices and letters.
       Management’s Response: IRS management agreed with this recommendation but
       did not agree with the reported outcome measure. They have developed a Notice
       Governance Review Process for new and revised notices. This process includes issuance
       of a checklist to ensure that proper coordination across business units has taken place,
       that effectiveness measures have been developed, and that the most efficient delivery and
       publishing options (including postage impact) have been considered. This process will
       also include a review of all notices and letters to ensure that they use the fewest possible
       resources.
       Office of Audit Comment: The IRS believes that a review of notices will result in
       some savings but cautioned that the length of notices depends on the taxpayer’s situation
       and some legislative mandates. Our tests were limited to a judgmental sample of only
       40 out of the more than 1,000 notices and letters the IRS generates. The cost data used to
       calculate outcomes were outdated and based on estimates provided by the IRS.
       Furthermore, the lack of IRS data prohibited us from calculating additional machine cost
       savings due to productivity gains realized from reducing the number of stuffers, pages

                                                                                           Page 15
             Improvements in the Distribution and Design of Internal
           Documents and Tax Publications, Forms, and Notices Could
                         Reduce Costs Considerably



printed, and envelopes stuffed. The IRS agreed to conduct a review of all notices and
letters to ensure that they use the least possible resources. As a result, we believe the
reported outcome measure is a conservative estimate and accurately reflects projected
cost savings.




                                                                                     Page 16
                    Improvements in the Distribution and Design of Internal
                  Documents and Tax Publications, Forms, and Notices Could
                                Reduce Costs Considerably



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the IRS’ efforts to reduce publishing and mail costs. To
accomplish this objective, we:
I.     Determined if Taxpayer Assistance Center managers were efficiently and effectively
       ordering and managing their inventories of tax forms, instructions, and publications made
       available to taxpayers.
       A. Selected a statistical sample of 58 Taxpayer Assistance Centers from a total
          population of 401 Taxpayer Assistance Centers. We used a 90 percent confidence
          level with a 5 percent precision rate and 5 percent expected error rate to reach a
          sample size of 48. We selected 58 Taxpayer Assistance Centers to ensure that we
          selected an adequate sample. Data validation was limited to following up with IRS
          analysts to reconcile anomalies in data.
       B. Reviewed the Due-In Survey Reports (tax products ordered from the Media and
          Publications function) and Balance on Hand Survey Reports (end-of-year inventory
          of tax products) to determine if the Taxpayer Assistance Centers efficiently ordered
          tax products for Fiscal Years 2005 through 2007.
       C. Using tax products ordered for Fiscal Years 2005 through 2007, determined if there
          were any trends in the ordering pattern.
       D. Determined the postage and publishing costs for all tax products to calculate waste
          for inefficient orders.
       E. Evaluated the internal controls to determine if there was a cost-effective process to
          manage the inventory of tax products.
II.    Determined if IRS functional office managers were efficiently and effectively ordering
       and managing their inventory of internal documents made available for employees to do
       their jobs.
       A. Conducted a walkthrough with IMDDS coordinators to obtain an overview of the
          system and how it automatically distributed published products to IRS employees.
       B. Obtained IMDDS database reports to identify the number of functional offices
          receiving internal documents and the number of products available in hardcopy and
          electronic formats.



                                                                                          Page 17
                    Improvements in the Distribution and Design of Internal
                  Documents and Tax Publications, Forms, and Notices Could
                                Reduce Costs Considerably



       C. Selected a statistical sample of 136 IRS functional offices from a population of more
          than 8,841 IRS offices. We used a 90 percent confidence level with a 5 percent
          precision rate and 15 percent expected error rate to reach a sample size of 136.
          1. Emailed questionnaires to office managers for the offices in the sample. We
             contacted IRS office managers to validate the reliability of the IMDDS data. We
             also confirmed that IRS offices listed on IMDDS were still functional.
          2. Quantified results of the responses to the questionnaires.
       D. Determined the postage and publishing costs for all internal documents to calculate
          waste for inefficient orders and documents received as hard copy.
       E. Evaluated the internal controls to determine if there was a cost-effective process to
          manage the inventory of internal documents.
III.   Determined if the IRS has adequate controls over taxpayer notices and letters to ensure
       that its offices and functions were following laws and regulations and were using the
       most cost-effective methods to process and distribute notices and letters. Data validation
       was limited to obtaining and reviewing actual copies of notices and letters scheduled for
       issuance to taxpayers included in our sample.




                                                                                          Page 18
                   Improvements in the Distribution and Design of Internal
                 Documents and Tax Publications, Forms, and Notices Could
                               Reduce Costs Considerably



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Deborah Drain, Lead Auditor
Ken Carlson, Senior Auditor
Jerry Douglas, Auditor
Andrea Hayes, Auditor
Pat Jackson, Auditor
Nelva Usher, Auditor
Geraldine Vaughn, Auditor
Arlene Feskanich, Information Technology Specialist
Joseph Katz, Statistician




                                                                                   Page 19
                   Improvements in the Distribution and Design of Internal
                 Documents and Tax Publications, Forms, and Notices Could
                               Reduce Costs Considerably



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Electronic Tax Administration SE:W:ETA
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Media and Publications Division SE:W:CAR:MP
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 20
                       Improvements in the Distribution and Design of Internal
                     Documents and Tax Publications, Forms, and Notices Could
                                   Reduce Costs Considerably



                                                                                            Appendix IV

                                   Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Cost Savings – Funds Put to Better Use – Potential; $3,280,000 (see page 3). The outcome
    includes actual lost dollars of $1,312,000 for Fiscal Years 2006 and 2007. It also includes
    projected cost savings of $1,968,000 to print, mail, and/or ship excess tax products to IRS
    Taxpayer Assistance Centers for Fiscal Years 2008 through 2010.

Methodology Used to Measure the Reported Benefit:
Excess Tax Products
Our test results showed the IRS does not have an effective process to determine the volume of
tax products that need to be available for taxpayers at the Taxpayer Assistance Centers. A
statistical sample of tax product orders from 58 of the 401 Taxpayer Assistance Centers showed
approximately 1.3 million in excess tax products1 in Fiscal Year 2006 and approximately
1.2 million in Fiscal Year 2007. We considered Taxpayer Assistance Centers using 90 percent
of their inventories of tax products to have efficient inventory controls. Inventory of tax
products remaining of more than 10 percent of annual orders was considered waste.
•   For Fiscal Year 2006, 27 (47 percent) of 58 Taxpayer Assistance Centers did not use
    90 percent of the tax products ordered. This represented 1.3 million tax products costing
    more than $96,000 (1,307,792 x $.07362) that were not needed.
•   For Fiscal Year 2007, 25 (43 percent) of 58 Taxpayer Assistance Centers did not use
    90 percent of the tax products ordered. This represented 1.2 million tax products costing
    more than $91,000 (1,238,895 x $.0736) that were not needed.
We projected the error rates for both years across the 401 Taxpayer Assistance Centers to
compute the excess tax products and cost savings the IRS could have realized if the tax products
had not been ordered:


1
 Excess tax products for the months of October through September for Fiscal Years 2006 and 2007.
2
 We used the average publishing ($.0545) and shipping ($.0191) expense provided by the Media and Publications
function to compute the actual and projected costs ($.0545 + $.0191 = $.0736).
                                                                                                      Page 21
                     Improvements in the Distribution and Design of Internal
                   Documents and Tax Publications, Forms, and Notices Could
                                 Reduce Costs Considerably



For Fiscal Year 2006:
    • 188 (47 percent) of 401 Taxpayer Assistance Centers could have ordered 9.2 million tax
      products that were not needed. Specifically, we:
           o Divided the total population by the sample size = 401/58 = 7 (interval).
           o Multiplied the waste from the exception Taxpayer Assistance Centers by the
             interval, (1,307,792 x 7) = 9,154,544.
           o Multiplied the projected waste times the average publishing and shipping cost to
             determine the cost savings, (9,154,544 x $.0736) = $673,774.
For Fiscal Year 2007:
    • 172 (43 percent) of 401 Taxpayer Assistance Centers could have ordered 8.7 million tax
      products that were not needed. Specifically, we:
           o Divided the total population by the sample size = 401/58 = 7 (interval).
           o Multiplied the waste from the exception Taxpayer Assistance Centers by the
             interval, (1,238,395 x 7) = 8,668,765.
           o Multiplied the projected waste times the average publishing and shipping cost to
             determine the cost savings, (8,668,765 x $.0736) = $638,021.
Projected cost savings over 3 years
We took the average actual lost dollars for both fiscal years and multiplied it by 3 years to
compute the projected cost savings ($673,774 + $638,021)/2 = $656,000; ($656,000 x 3) =
$1,968,000.
Total outcome for excess tax products
$674,000 + $638,000 + $1,968,000 = $3,280,000

Type and Value of Outcome Measure:
•   Cost Savings – Funds Put to Better Use – Potential; $4,625,240 (see page 7). The outcome
    includes actual lost dollars of $925,048 for Fiscal Year 2007. It also includes projected cost
    savings of $3,700,192 to print and ship unnecessary internal documents to IRS offices for
    Fiscal Years 2008 through 2011.

Methodology Used to Measure the Reported Benefit:
Excess Internal Documents
Test results showed the IRS unnecessarily delivered internal documents used by employees to do
their jobs to its functional offices. A statistical sample of 133 of 8,841 functional offices (order

                                                                                            Page 22
                        Improvements in the Distribution and Design of Internal
                      Documents and Tax Publications, Forms, and Notices Could
                                    Reduce Costs Considerably



points) listed on the IMDDS3 in Fiscal Year 2007 were sent questionnaires.4 Based on managers’
answers to the questionnaires, 11,627 (37 percent) of the 31,208 internal documents currently
being delivered to these offices either were not needed or were preferred in electronic format.
The total cost for the unneeded documents was approximately $13,371. We computed the cost
by multiplying the number of documents that were no longer needed or were preferred in
electronic format by the average printing and shipping costs (11,627 x $1.15).
We projected the sampled results to all 8,841 IRS functional offices to compute the cost savings
the IRS could realize by not printing and mailing internal documents that were no longer needed
or were preferred in electronic format. As of August 2007, these offices were receiving
2,159,061 internal documents.5
•   For the offices that did not need any of the documents, we projected that the IRS
    delivered 143,416 unneeded internal documents at a cost of $164,929.
    Documents not needed from sample results:                          2,073
    Number of documents delivered to sampled offices:                  31,208
    Percentage of documents not needed:                                2,073/31,208 = 6.6425 percent
    Projected number of documents not needed:                          6.6425% x 2,159,061 = 143,416
    Projected cost:                                                    143,416 x $1.15 = $164,929
•   For the offices that did not need all of the documents and/or did not need the quantity
    delivered, we projected that the IRS delivered 419,733 unneeded internal documents at
    a cost of $482,693.
    Documents not needed from sample results:                          6,067
    Number of documents delivered to sampled offices:                  31,208
    Percentage of documents not needed:                                6,067/31,208 = 19.4405 percent
    Projected number of documents not needed:                          19.4405% x 2,159,061 = 419,733
    Projected cost:                                                    419,733 x $1.15 = $482,693
•   For managers that responded they needed all of the internal documents but in lesser
    quantities, we projected the IRS delivered 241,241 unneeded internal documents at a
    cost of $277,427.
    Documents not needed from sample results:                          3,487
    Number of documents delivered to sampled offices:                  31,208
    Percentage of documents not needed:                                3,487/31,208 = 11.1734 percent


3
  The IRS uses the IMDDS to distribute internal documents to its functional offices and employees.
4
  Our original sample was 136 offices. We were unable to capture the results for three offices because the
respondents did not answer all of the questions on the questionnaires.
5
  The calculated projected cost savings of the internal documents will not equal due to rounding.
                                                                                                             Page 23
                          Improvements in the Distribution and Design of Internal
                        Documents and Tax Publications, Forms, and Notices Could
                                      Reduce Costs Considerably



      Projected number of documents not needed:                         11.1734% x 2,159,061 = 241,241
      Projected cost:                                                   241,241 x $1.15 = $277,427

Projected cost savings over 4 years
We took the actual cost savings for 2007 x 4 years to compute the projected cost savings
($164,927 + $482,691 + $277,427) = $925,048 x 4 = $3,700,192.
Total outcome for excess internal documents
$925,048 + $3,700,192 = $4,625,240

Type and Value of Outcome Measure:
•     Cost Savings – Funds Put to Better Use – Potential; $12,261,100 (see page 10). The outcome
      includes actual lost dollar of $7,356,660 for Fiscal Years 2005 through 2007. It also includes
      projected cost savings of $4,904,440 to print unnecessary notice pages to taxpayers for Fiscal
      Years 2008 through 2009.

Methodology Used to Measure the Reported Benefit:
Notices and Letters
Test results showed that for Fiscal Years 2005 through 2007, the IRS could have saved
approximately 408 million pages of paper at a cost of approximately $7.3 million by
(1) eliminating duplicate copies of notices and letters provided to taxpayers, (2) eliminating
unnecessary cover sheets, (3) redesigning notices and letters, and (4) reducing the number of
stuffers included with the notice/letter. We computed the actual cost savings by multiplying the
number of unneeded pages by the average cost ($.034) for notices and ($.003) for stuffers
provided by the Media and Publications function. 6
•     The cost savings from eliminated pages:                  197,844,093 x $.034 = $6,726,699
•     The cost savings from eliminated stuffers:               209,986,935 x $.003 = $ 629,961
      Total:                                                                         $7,356,660
Projected cost savings over 2 years
We computed the projected cost savings by taking the average of the cost savings multiplied
over 2 years.
($7,356,660)/3 = $2,452,220 x 2 = $4,904,440


6
    The cost savings in Appendices IV and V will not equal due to rounding.



                                                                                                  Page 24
                    Improvements in the Distribution and Design of Internal
                  Documents and Tax Publications, Forms, and Notices Could
                                Reduce Costs Considerably



Total Outcome for notices/letters waste
$7,356,660 + $4,904,440 = $12,261,100




                                                                        Page 25
                       Improvements in the Distribution and Design of Internal
                     Documents and Tax Publications, Forms, and Notices Could
                                   Reduce Costs Considerably



                                                                                             Appendix V

        Notices and Letters Included in Cost Savings

                    Eliminating Duplicate Copies of Notices and Letters
                                                                                   Pages
                                                                    Pages                          Annual
                                                                                 Eliminated
                                                                   Reduced                         Savings
 Notices                     Title/Description                                    Annually
            Individual Return Incomplete for Processing:
 0012C                                                                 3         2,807,477          $95,604
            Form 1040
 0105C      Claim Disallowed                                           3         1,085,913          $36,143
 0147C      EIN Previously Assigned                                    1           429,266          $14,305
            Installment Agreement Accepted; Terms
 2273C                                                                 4         4,349,417         $147,900
            Explained
            Installment Agreement Accepted; Terms
 3217C                                                                 4         4,840,301         $165,045
            Explained
                                               Annual Savings                   13,512,374         $458,997
                           Waste for Fiscal Years 2005-2007                     40,537,122        $1,376,991
             Projected Savings for Fiscal Years 2008-2009                       27,024,748         $917,994

                                                         Totals                 67,561,870        $2,294,985
Source: Our analysis of the Media and Publications function Correspondence Production Services.




                                                                                                     Page 26
                            Improvements in the Distribution and Design of Internal
                          Documents and Tax Publications, Forms, and Notices Could
                                        Reduce Costs Considerably



                                  Eliminating Unnecessary Cover Sheets

                                                                             Pages               Pages
                                                                            Reduced             Reduced           Annual
 Notices                        Title/Description                          Per Notice           Annually          Savings
 CP501      Individual Master File (IMF)1 1st Notice – Balance Due               1              2,567,411          $87,481
                  nd
 CP503      IMF 2 Notice – Balance Due                                           1              3,479,171         $118,707
 CP504      4th Notice – Balance Due                                             1              4,198,742         $143,319
 CP523      Installment Agreement Default Notice                                 1              3,416,421         $116,294
                                                     Annual Savings                            13,661,745         $465,801
                                 Waste for Fiscal Years 2005-2007                              40,985,235        $1,397,403
                   Projected Savings for Fiscal Years 2008-2009                                27,323,490         $931,602
                                                                 Totals                        68,308,725        $2,329,005
Source: Our analysis of the Media and Publications function Correspondence Production Services.




    1
      IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
    taxpayer’s account records.
                                                                                                                 Page 27
                             Improvements in the Distribution and Design of Internal
                           Documents and Tax Publications, Forms, and Notices Could
                                         Reduce Costs Considerably



                                       Redesigning Notices and Letters
                                                                                              Pages
                                                                         Pages Per           Reduced          Annual
 Notice                    Title/Description of Notice                    Notice             Annually         Savings
             Individual Return Incomplete for Processing: Form
 0012C                                                                        1                   935,826      $31,868
             1040
 2273C       Installment Agreement Accepted; Terms Explained                  1              1,087,354         $36,975
 2840C       CC IAPND Installment Agreement Confirmation                      1                310,732         $10,382
 3217C       Installment Agreement Accepted; Terms Explained                  1              1,210,075         $41,261
             Data Processing Adjustment Notice, Overpayment of
 CP21B                                                                        1              3,547,638        $120,774
             $1 or More
             Data Processing Adjustment Notice, Balance Due of
 CP22A                                                                        1              2,882,194         $98,428
             $5 or More
 CP49        Overpayment Adjustment – Offset                                  1              4,383,921        $149,487
 CP518       Final Notice – Return Delinquency                                1                848,864         $28,847
 CP521       Installment Agreement Reminder Notice                            1             15,000,000        $510,000
 CP71        Reminder Notice                                                  1              1,455,984         $49,431
 CP71C       Reminder Notice – Balance Due                                    1              1,949,725         $66,331
 CP89        Annual Installment Agreement Statement                           1              5,161,599        $174,101
                                                    Annual Savings                          38,773,912       $1,317,885
                                Waste for Fiscal Years 2005-2007                           116,321,736       $3,953,655
                   Projected Savings for Fiscal Years 2008-2009                             77,547,824       $2,635,770
                                                               Totals                      193,869,560       $6,589,425
Source: Our analysis of the Media and Publications function Correspondence Production Services.




                                                                                                            Page 28
                           Improvements in the Distribution and Design of Internal
                         Documents and Tax Publications, Forms, and Notices Could
                                       Reduce Costs Considerably



                        Reducing Stuffers Included with Notices and Letters
                                                                 Include Information        Stuffers          Annual
Notice                    Title/Description                          in the Notice         Eliminated        Savings
CP12      Math Error, Overpayment of $1 or More                      Notice 1212             2,194,663          $6,542
CP14      Balance Due $5 or More, No Math Error                      Notice 1212             5,386,317         $16,057
CP21B     Data Processing Adjustment Notice,
                                                                     Notice 1212             3,547,638         $10,576
          Overpayment of $1 or More
CP21C     Data Processing Adjustment Notice, Balance
                                                                     Notice 1212             1,284,297          $3,829
          Due , $5, Overpayment <$1
CP22A     Data Processing Adjustment Notice, Balance
                                                                     Notice 1212             2,882,194          $8,592
          Due of $5 or More
CP24      Estimated Tax Discrepancy, Overpayment of
                                                                     Notice 1212             1,159,725          $3,457
          $1 or More
CP49      Overpayment Adjustment – Offset                            Notice 1212             4,383,921         $13,069
CP501     IMF 1st Notice – Balance Due                               Notice 1212             2,567,411          $7,654
CP503     IMF 2nd Notice – Balance Due                               Notice 1212             3,479,171         $10,372
CP504     4th Notice – Balance Due                                 Notices 1212 and
                                                                                             8,397,484         $23,690
                                                                        1219-B
CP515     1st Notice – Return Delinquency                             Notice 609             2,094,843          $7,002
CP518     Final Notice – Return Delinquency                         Notice 1219-B                 848,864       $2,259
CP521     Installment Agreement Reminder Notice                      Notice 1212            21,530,565         $64,184
CP523     Installment Agreement Default Notice                       Notices 1212
                                                                                             6,832,843         $19,276
                                                                     and 1219-B
CP71      Reminder Notice                                            Notice 1212             1,455,984          $4,340
CP71C     Reminder Notice – Balance Due                              Notice 1212             1,949,725          $5,812
                                           Annual Savings                                   69,995,645        $206,711
                        Waste for Fiscal Years 2005-2007                                   209,986,935        $620,133
          Projected Savings for Fiscal Years 2008-2009                                     139,991,290       $413,422
          Totals                                                                           349,978,225      $1,033,555
Source: Our analysis of the Media and Publications function Correspondence Production Services.




                                                                                                            Page 29
       Improvements in the Distribution and Design of Internal
     Documents and Tax Publications, Forms, and Notices Could
                   Reduce Costs Considerably



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 30
  Improvements in the Distribution and Design of Internal
Documents and Tax Publications, Forms, and Notices Could
              Reduce Costs Considerably




                                                      Page 31
  Improvements in the Distribution and Design of Internal
Documents and Tax Publications, Forms, and Notices Could
              Reduce Costs Considerably




                                                      Page 32
  Improvements in the Distribution and Design of Internal
Documents and Tax Publications, Forms, and Notices Could
              Reduce Costs Considerably




                                                      Page 33
  Improvements in the Distribution and Design of Internal
Documents and Tax Publications, Forms, and Notices Could
              Reduce Costs Considerably




                                                      Page 34
